APPENDIX

Dakota Manucy Constantin
v.
Florida
APPENDIX

INDEX TO APPENDIX
A. Fifth District Court of Appeal of Florida Opinion Dated July 24, 2020
B. Fifth District Court of Appeal of Florida Denial of Rehearing Dated
September 1, 2020
C. Fifth District Court of Appeal of Florida Mandate Dated September 21, 2020

APPENDIX
A

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
FIFTH DISTRICT
NOT FINAL UNTIL TIME EXPIRES TO
FILE MOTION FOR REHEARING AND
DISPOSITION THEREOF IF FILED

DAKOTA MANUCY CONSTANTIN,
Appellant,
v.

Case No. 5D19-328

STATE OF FLORIDA,
Appellee.
________________________________/
Opinion filed July 24, 2020
Appeal from the Circuit Court
for St. Johns County,
Howard M. Maltz, Judge.
Wayne F. Henderson, St. Augustine,
for Appellant.
Ashley Moody, Attorney General,
Tallahassee, and Carmen F. Corrente,
Assistant Attorney General, Daytona
Beach, for Appellee.
PER CURIAM.
AFFIRMED. See Paul v. State, 277 So. 3d 232, 239-40 (Fla. 1st DCA 2019)
(recognizing that sentencing court could consider misconduct where allegation was not
unsubstantiated but based on evidence); Barlow v. State, 238 So. 3d 416, 417 (Fla. 1st
DCA 2018) (recognizing that even if sentencing court had considered conduct that was

uncharged, this would not have been error because, inter alia, “[the conduct] . . . was not
unsubstantiated”).
GROSSHANS and SASSO, JJ., concur.
COHEN, J., dissents with opinion.

2

CASE NO. 5D19-328
COHEN, J., dissenting.
Dakota Constantin (“Constantin”) appeals from the judgment and sentence
entered after he pled no contest to possession with intent to sell cannabis while armed
and tampering with evidence. 1 He raises two points on appeal, only one of which merits
discussion. Constantin argues that the trial court committed fundamental error by
considering improper sentencing factors. I agree and would reverse and remand for
resentencing before a different judge.
This case involves a number of criminal defendants, some of whom were juveniles
at the time of the incident, including Constantin. It is undisputed that Sarah Itani and Kahlil
Cooke arranged a meeting with Race Arthur to purportedly purchase marijuana from
Arthur. In actuality, Itani and Cooke, along with two other individuals, Dalton Faulkner and
Gerald Evans, intended to rob Arthur. 2 Evans was armed with a handgun, while Cooke
had brass knuckles supplied by Faulkner.
Constantin, who was Arthur’s cousin, accompanied him to the drug deal, and both
were armed. It is undisputed that Arthur arranged the deal, possessed the drugs, and was
going to receive the proceeds from the transaction. Upon arrival, while Itani pretended to
inspect the merchandise, Cooke and Evans, wearing masks, approached and began

1

§§ 893.13(1)(a)2., 775.087(1), 918.13, Fla. Stat. (2018). The tampering with
evidence charge stemmed from disposing of the firearm.
2

Cooke appears to have been the mastermind of the robbery plan.

3

beating Constantin and Arthur. During the struggle, gunshots were exchanged by both
sides, which resulted in Constantin and Arthur shooting and killing Cooke. 3
The State charged the parties in two distinct groups. The first group consisted of
Constantin and Arthur, who were charged with possession with intent to sell cannabis
while armed and tampering with evidence, second and third-degree felonies, respectively.
The second group included those who conspired to rob Arthur. 4 Each individual within
that group was charged with varying levels of second-degree felony murder in addition to
several forms of robbery. Those charges ranged from life felonies to second-degree
felonies, and each person within the second group faced sentences upwards to life
imprisonment. All parties entered no contest pleas. 5
Itani, Arthur, and Constantin were sentenced on the same day. Itani was
sentenced first. The trial court commented that it hoped that people who thought
marijuana was “not a big deal” would pay attention to the case, because what “seemed
initially like a simple marijuana drug transaction ended up with one person dead and a
bunch of young people going to spend a lot of their time in prison and their lives ruined
as well.” Itani received a sentence of twelve years in the Department of Corrections.

3

The autopsy revealed the cause of death was injuries from two different
projectiles.
4

The group was unaware that Constantin would be present.

5

Faulkner, who was an adult, entered into a negotiated plea with the State. His
second-degree felony murder charge was dropped in return for a plea to robbery and
tampering with evidence with a sentence of six years in the Department of Corrections,
followed by nine years of probation. Evans entered into a negotiated plea as charged for
a fifteen-year sentence. Itani pled no contest to a sentence range of ten to twenty years.
Arthur and Constantin entered “open” pleas to the court with no agreed-upon sentence.

4

The sentencing of Arthur and Constantin followed. During their sentencing, the
State conceded that it could not charge either Arthur or Constantin with Cooke’s death
because it had insufficient evidence to do so. The State noted:
As you know, the current state of the law is that it must be
disproven that it was not self-defense. And in this particular
case the way the circumstances of these facts and evidence
fell out it was impossible to disprove that this was selfdefense.
The deceased individual and his friends were committing a
forcible felony on these young men, which by the state of the
law provides a presumption that they were in fear of their life
and was justified in using deadly force. The evidence in this
case also showed that the two bullets that struck the
deceased’s body entered into his side, not in the front, not in
the back. There was no clarity. It made it very—and it was—it
was—we strongly considered those charges, but as an officer
of the court we can’t bring charges unless we can prove it, and
in this particular case that was the reason we charged the
case the way we did. And it’s brought a lot of consternation to
a lot of individuals, and rightfully so, and I understand that,
and would feel the same way if I was in their position as well,
but, again, I’m an officer of the court. Our office is—we are
made up of officers of the court that can only pursue cases
where there is evidence.
Despite that acknowledgement and the significant differences in how the two
groups were charged, the State took the position that all the participants should be treated
the same: that if Arthur and Constantin had not agreed to do a drug deal, “this wouldn’t
have happened.”
The trial court’s comments in sentencing Arthur and Constantin were consistent
with the State’s position. In sentencing Arthur, the trial court remarked:
The bottom line here is you brought a gun to a drug deal. You
were engaged in a drug deal. You could have made the
decision to not engage in a drug deal. You could have made
the decision to not bring a gun to a drug deal. Had you made
either of those decisions, you wouldn’t be standing here facing

5

the serious charges that you’re facing today and the decedent
in this case would still be alive.
It is one thing to assert self-defense, and I appreciate the
State clearing up why they did not charge Mr. Arthur and
[Constantin] with felony murder. I understand the current state
of the law with regards to self-defense does make it difficult
for the State in facts like this to bring that type of charge. But
it’s one thing to engage in self-defense and shoot somebody
when you’re engaging in lawful activities. It’s another thing to
engage in self-defense and shoot somebody when you are
not engaged in lawful activities. You were not engaged in
lawful activities. You were engaged in a drug deal. As a result
of your actions, somebody’s dead. 6
When sentencing Constantin, the trial court repeated its comments from Itani’s
sentencing that it wished other juveniles who thought “marijuana [was] not a big deal”
could see what happened in the case. The court then told Constantin:
I cannot, again, lose sight of the fact that somebody’s dead,
that somebody is dead as a result of a drug deal that you
participated in. Wasn’t your weed, you weren’t going to get the
money, but you knew a drug deal was going to happen. I
mean, you testified to that. That’s no mystery.
You knew a drug deal was going to happen, you took a gun
there, and because of that drug deal that you and your cousin
were involved in, because of bringing a gun, and because of
the conduct of the folks on the other side of this drug deal that
went bad, there’s somebody dead today, and dead in part
because of the bullets that you fired and dead in part because
of the bullet that your cousin fired and dead in part because
of the conduct of the decedent and—his cohorts as well. So I
take all that into consideration when I impose sentence in this
case.
Constantin, who was seventeen years old at the time of the offense, had no prior
criminal history. The Department of Juvenile Justice recommended a probationary
sentence and the State of Florida Pre-Sentence Investigation recommended a youthful

6

Arthur was sentenced to twelve years in the Department of Corrections.
6

offender sentence followed by community control. Constantin’s sentencing guideline
scoresheet called for a non-state prison sentence. Despite these recommendations, the
trial court sentenced Constantin to ten years on the first count and five years on the
second count in the Department of Corrections, with the sentences to run concurrently.
On appeal, Constantin argues that the trial court improperly considered an
uncharged,

unsubstantiated

allegation

in

imposing

a

ten-year

sentence.

He

acknowledges that he failed to contemporaneously object to the trial court’s comments.
As a result, this Court may consider the error only if it is fundamental. Jackson v. State,
983 So. 2d 562, 574 (Fla. 2008).
Appellate courts review claims that a sentence was based on consideration of
improper factors under the de novo standard. Kenner v. State, 208 So. 3d 271, 277 (Fla.
5th DCA 2016). Although appellate courts generally may not review a sentence that is
within statutory limits under the Criminal Punishment Code, “an exception exists when
the trial court considers constitutionally impermissible factors in imposing a sentence.”
Berben v. State, 268 So. 3d 235, 237 (Fla. 5th DCA 2019) (citing Kenner, 208 So. 3d at
277). One such impermissible factor is a trial court’s consideration of uncharged,
unsubstantiated crimes or misconduct. Nusspickel v. State, 966 So. 2d 441, 445 (Fla. 2d
DCA 2007) (“Unsubstantiated allegations of misconduct or speculation that the defendant
probably committed other crimes may not be relied upon by a trial court in imposing
sentence.”). “‘[W]hen a trial court relies on impermissible factors in sentencing a
defendant, the court violates the defendant's due process rights,’ committing fundamental
error.” Berben, 268 So. 3d at 237 (alteration in original) (quoting N.D.W. v. State, 235 So.
3d 1001, 1002 (Fla. 2d DCA 2017)).

7

There is no need to speculate or guess whether the trial court, in sentencing
Constantin on a drug-related charge, punished Constantin for uncharged conduct. During
the course of the sentencing, the trial court made repeated references to Cooke’s death
and held both Arthur and Constantin responsible, despite neither being charged in his
death. The similarity in sentences imposed between the two groups only serves to
substantiate Constantin’s claim that the trial court considered and punished Constantin
for Cooke’s death in imposing sentence.
Additionally, the trial court ignored the State’s concession that it could not disprove
that Constantin had acted in self-defense. Although Constantin’s use of force during the
drug transaction could have been a relevant factor in determining whether he lawfully
used deadly force, see § 76.012(2), Fla. Stat. (2018), the State acknowledged that it could
not charge Constantin due to the circumstances of the incident. The State explained to
the trial court that it had “strongly considered” charging Constantin with Cooke’s death
but decided not to because it would have been “impossible” to overcome the presumption
that Constantin had used lawful force.
The Legislature created the offense of possession of cannabis with intent to sell
while armed. It determined the points to be used in sentencing that offense. The
Legislature specifically factored in the bringing of a gun to a drug deal, a fact prominently
mentioned by the trial court. The State was well aware of those elements. It admitted
having considered bringing more serious charges against Constantin, and acknowledged
there was insufficient evidence to do so. It is disingenuous for the State to decline to
charge Constantin with Cooke’s death either directly or as a principal, and then argue that
Constantin should receive the same sentence as those charged with Cooke’s death.

8

In summation, when the trial court sentenced Constantin, it improperly considered
the uncharged death of Cooke and whether Constantin had engaged in lawful selfdefense, which infringed on his due process rights. See Tharp v. State, 273 So. 3d 269,
271 (Fla. 2d DCA 2019) (stating that improper considerations of subsequent uncharged
conduct in sentencing violates defendant’s due process rights); see also Berben, 268 So.
3d at 237.
Accordingly, I would reverse and remand for resentencing before a different
judge. 7

7

I recognize that an earlier panel of this Court rejected similar arguments made by
Arthur. Arthur v. State, 294 So. 3d 314 (Fla. 5th DCA 2020). In my view, that case was
decided incorrectly.
9

B

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
FIFTH DISTRICT
DAKOTA MANUCY CONSTANTIN,
Appellant,
v.

CASE NO. 5D19-0328

STATE OF FLORIDA,
Appellee.
________________________/
DATE: September 01, 2020

BY ORDER OF THE COURT:
ORDERED that Appellant's Motion for Rehearing En Banc, filed August 8, 2020,
is denied.

I hereby certify that the foregoing is
(a true copy of) the original Court order.

Panel: En Banc Court
cc:
Carmen F. Corrente

Office of the Attorney
General

Wayne F. Henderson

APPENDIX

M

A

N

D

A

T

E

from

DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA

FIFTH DISTRICT
THIS CAUSE HAVING BEEN BROUGHT TO THIS COURT BY APPEAL OR BY PETITION, AND
AFTER DUE CONSIDERATION THE COURT HAVING ISSUED ITS OPINION OR DECISION;
YOU ARE HEREBY COMMANDED THAT FURTHER PROCEEDINGS AS MAY BE REQUIRED
BE HAD IN SAID CAUSE IN ACCORDANCE WITH THE RULING OF THIS COURT AND WITH THE
RULES OF PROCEDURE AND LAWS OF THE STATE OF FLORIDA.
WITNESS THE HONORABLE Kerry I. Evander, CHIEF JUDGE OF THE DISTRICT COURT OF
APPEAL OF THE STATE OF FLORIDA, FIFTH DISTRICT, AND THE SEAL OF THE SAID COURT AT
DAYTONA BEACH, FLORIDA ON THIS DAY.
DATE: September 21, 2020
FIFTH DCA CASE NO.: 5D 19-0328
CASE STYLE: DAKOTA MANUCY CONSTANTIN

v.

STATE OF FLORIDA

COUNTY OF ORIGIN: St. Johns
TRIAL COURT CASE NO.: 18CF-0452
I hereby certify that the foregoing is
(a true copy of) the original Court mandate.

Mandate and Opinion to: St. Johns Cty. Circuit Court
cc: (without attached opinion)
Carmen F. Corrente

Office of the Attorney General

Wayne F. Henderson

